                       0

       YEAR 2000 COMPUTING PROBLEM AT AIR FORCE
            MAJOR RANGE AND TEST FACILITIES



Report Number 98-187                       August 14, 1998




             Office of the Inspector General
                 Department of Defense
 Additional    information   and Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 6048937 (DSN 6648937) or FAX (703) 604-8932 or visit the Inspector
 General. DOD Home Page at: WWW.DODlG.OSD.MIL.

 Suggestions    for Audits

 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support
 Directorate at (703) 6048908 (DSN 664-8908) or FAX (703) 604-8932.           Ideas
 and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 4249098; by sending an electronic message to
 Hotline@DODIG.OSD.MIL;        or by writing to the Defense Hotline, The
 Pentagon, Washington, D.C. 20350-1900. The identity of each writer and caller
 is fully protected.




Acronyms

APB                    Air Force Base
Y2K                    Year 2000
                                INSPECTOR     GENERAL
                                DEPARTMENT   OF DEFENSE
                                  400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202




                                                                         August 14, 1998



MEMORANDUM         FOR ASSISTANT SECRETARY OF THE AIR FORCE
                         (FINANCIAL MANAGEMENT AND COMPTROLLER)
                       DIRECTOR, TEST, SYSTEMS ENGINEERING AND
                         EVALUATION

SUBJECT:    Year 2000 Computing Problem at Air Force Major Range and Test Facilities
            (Report No. 98-187)


        We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report Comments
on the draft report conform to the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore, no additional comments are required.

        We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. Raymond A. Spencer at (703) 604-9071
(DSN 664-9071) or Mr. Michael E. Simpson at (703) 604-8972 (DSN 664-8972). See
Appendix B for the report distribution, The audit team members are listed inside the back
cover.




                                         Robert f Lieberman
                                      Assistant Inspector General
                                              for Auditing
                           Office of the Inspector   General,   DoD

Report No. 98-187                                                       August    14, 1998
  (Project No. 8AB-3003)



                   Year 2000 Computing Problem at Air Force
                        Mqjor Range and Test Facilities

                                   Executive Summary

Introduction.    This report is one of a series of reports being issued by the Inspector
General, DOD, in accordance with an informal partnership with the Chief Information
Officer, DOD, to monitor DOD efforts in addressing the year 2000 computing
challenge. Information technology systems have typically used two digits to represent
the year, such as “98” representing 1998, to conserve electronic storage and reduce
operating cost. However, the year 2000 is indistinguishable from the year 1900 with
the two-digit format. As a result of the ambiguity, computers, associated systems, and
application programs that use dates to calculate, compare, and sort could generate       .
incorrect results when working with years after 1999.

Audit Objectives. Our primary audit objective was to determine whether the
Air Force major range and test facilities are adequately preparing their information
technology systems to resolve date-processing issues for the year 2000 computing
problem. Specifically, the audit determined whether the Air Force major range and
test facilities have complied with the DOD Year 2000 Management Plan. We did not
review the management control program related to the overall audit objective because
DOD recognizes the year 2000 issue as a material management control weakness area in
the FY 1997 Annual Statement of Assurance.

Audit Results. The Air Force is currently assessing its business and test information
systems for year 2000 compliance at eight major range and test facilities. We visited
four of these ranges to determine the progress being made and the steps being taken to
ensure year 2000 compliance. Because managers did not take an aggressive approach
to ensure that all systems will be year 2000 compliant by December 1999, two of the
four ranges were still in the awareness and assessment phases, but plan to complete the
renovation phase by September 1998. One range was behind because senior level
managers were not aware of the year 2000 problems. At the other range, there was a
lack of guidance and oversight by managers at all levels. As a result of the belated
attention to the problem, the risk that certain business and test information systems may
not be year 2ooO compliant by December 3 1, 1999 was somewhat increased. See Part
I for details of the audit results.

Summary of Recommendations.           We recommend that the Director, Air Force Test
and Evaluation Directorate, and the Director, Air Force Operations and Training
Directorate, review the status of the year 2000 problem at the major range and test
facilities to determine steps that will ensure that the year 2000 schedule is met and
system repair, replacement and testing are completed by December 1999.
Management Comments. The Director, Test, Systems Engineering and Evaluation,
Office of the Under Secretary of Defense (Acquisition and Technology); the Director,
Test and Evaluation, Headquarters United States Air Force; the Deputy Director of
Operations and Training, Office of the Deputy Chief of Staff, Air and Space
Operations, submitted comments on the draft. The comments from the Director, Test,
Systems Engineering and Evaluation, concurred with the Air Forces response. The
Director, Test and Evaluation, agreed with the recommendation and submitted updated
information and a list of corrective actions. The Deputy Director of Operations and
Training, Office of the Deputy Chief of Staff, Air and Space Operations, also provided
additional information.

We also received unsolicited comments from the Acting Deputy Assistant Secretary of
Defense (CIO Policy and Implementation) stating that the Air Force should accelerate
its schedule to achieve compliance by December 1998, because those ranges and
facilities may be required to test other systems for Y2K compliance. See Part I for
discussion of management comments and Part III for the complete text of management
comments.

Audit Response. The comments provided us with additional updated information and
corrective actions that have taken place or that will take place. We consider the
comments and planned actions to be responsive to our recommendation and we have
updated the information in the report where necessary.




                                         ii
Table of Contents

Executive   Summary                                                             i

Part I - Audit Results

      Audit Background
      Audit Objectives
      Status of Air Force Major Range and Test Facilities
        Year 2000 Program
      Other Matters of Interest

Part II - Additional   Information

      Appendix A. Audit Process
        Scope and Methodology                                                  10
        Prior Audit Coverage                                                   11
      Appendix B. Report Distribution                                          12


Part III - Management      Comments

      Director, Test, Systems Engineering and Evaluation, Under Secretary of
         Defense (Acquisition and Technology) Comments                         16
      Director, Test and Evaluation, Headquarters United States Air Force
         Comments                                                              17
      Deputy Director of Operations and Training, Deputy Chief of Staff,
         Air and Space Operations Comments                                     21
      Acting Deputy Assistant Secretary of Defense
         (CIO Policy and Implementation) Comments                              26
Part I - Audit Results
Audit Background

    The year 2000 (Y2K) problem is the term most often used to describe the potential
    failure of information technology systems to process or perform date-related
    functions before, on, or after the turn of the century. The Y2K problem is rooted
    in the way that automated information systems record and compute dates. For the
    past several decades, systems have typically used two digits to represent the year,
    such as “98” representing 1998, to conserve on electronic data storage and reduce
    operating costs. However, the year 2000 is indistinguishable from the year 1900
    with the two-digit format. As a result of the ambiguity, computers, associated
    systems, and application programs that use dates to calculate, compare, and sort
    could generate incorrect results when working with years following 1999.
    Calculation of Y2K dates is further complicated because the year 2000 is a leap
    year, the first century leap year since 1600. The computer systems and
    applications must recognize       February 29, 2000, as avalid date.

    DOD Y2K Management Plan. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence), in his role as the DOD Chief
    Information Offricer, issued the “DOD Year 2000 Management Plan” (DOD
    Management Plan) in April 1997. The DOD Management Plan provides the overall
    DOD strategy and guidance for inventorying, prioritizing, repairing or retiring
    systems, and monitoring progress. The DOD Management Plan states that the
    DOD Chief Information Officer has overall responsibility for overseeing the DOD
    solution to the Y2K problem. Each of the five phases below represents a major
    Y2K program activity or segment. Target completion dates range from December
     1996 through March 1999.

             Phase I - Awareness. Organization and planning should take place
     Target completion date: December 1996

              Phase II - Assessment. Scope of Y2K impact is identified and system
     level analyses take place. Target completion date: June 1997

              Phase III - Renovation. Required system fixes are accomplished.      Target
     completion date: September 1998.

              Phase IV- Validation. Systems are confirmed Y2K compliant through
     assorted testing and compliance processes. New target completion date: January
     1999.

               Phase V - Implementation.  Systems are fully operational after being
     certified as Y2K compliant. New target completion date: March 1999

     The Office of the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) released an updated draft DOD Management
     Plan in April 1998 to accelerate the completion dates for resolving the potential
     Y 2K problem.


                                           2
     Air Force Strategy. The Air Force introduced a five-phase management
     approach, as described above, to address the Y2K problem early. The five phases
     were later incorporated into the DOD Management Plan and adopted by the
     Federal Government Chief Information Officer Council Year 2000 Subcommittee.
     This approach gives the Air Force the ability to achieve its goal of having every
     mission-critical system Y2K compliant by December 1998. The Air Force stated
     that each system has to be certified that it has completed one phase before it can
     move into the next phase. Certification training is provided by the Air Force
     Communications Agency. Because the Air Force does not plan to allocate any
     additional funds for the Y2K computing problem, managers are expected to
     reprogram or reprioritize previously budgeted funds

     Air Force Automated Systems Inventory. The Air Force Automated Systems
     Inventory database is used by the Air Force for their Y2K database and is managed
     by the Air Force Communications Agency at Scott Air Force Base (AFB), St.
     Louis, Missouri. The database has information such as system description, current
     phase, compliant or noncompliant, and estimated cost to repair the systems The
     Air Force Automated Systems Inventory is primarily used to track systems through
     each phase and provides status reports to the Congress, OSD, and senior Air Force
     officials.


Audit Objectives

     Our primary audit objective was to determine whether Air Force major range and
     test facilities are adequately preparing their information technology systems to
     resolve date-processing issues for the Y2K computing problem. Specifically, the
     audit determined whether the Air Force major range and test facilities have
     complied with the DOD Management Plan. Appendix A describes audit scope and
     methodology.




                                          3
           Status of the Air Force Major Range and
           Test Facilities Year 2000 Program
           Two of the four Air Force major range and test facilities visited are behind
           schedule in assessing range business and test information systems to
           determine the systems that need to be upgraded or replaced to ensure year
           2000 compliance. This condition exists because of the lack of awareness of
           the Y2K problem by senior level management at one range and the lack of
           guidance and oversight by managers at another range. As a result, the
           ranges may not be Y2K compliant by December 3 1, 1999.


Year 2000 Program

    Air Force Major Range and Test Facilities. The Air Force is currently assessing
    its business and test information systems for Y2K compliance at eight major range
    and test facilities. We visited four ranges (Arnold, Eglin, Edwards, Nellis) to
    determine the status of their Y2K programs. Two of the four ranges (Arnold and
    Eglin) have identified the systems and are on schedule to meet the Air Force’s
    renovation phase milestone completion date of June 30, 1998. However, Edwards
    and Nellis are still in the awareness and assessment phases and may not meet the
    renovation milestone date. In addition, the ranges have identified certain systems
    as mission critical that may need a higher funding priority to ensure Y2K
    compliance. The results of our review of the four ranges follow.

    Arnold AFB. The business and test information systems at Arnold AFB have
    been assessed, and the personnel responsible are renovating or replacing them,
    where necessary. The Y2K systems have also been prioritized by how critical each
    system is to the Arnold AFB mission, resulting in 27 unfunded Y2K systems. The
    estimated cost to repair or replace the unfunded systems is $1.4 million and since
    our audit, significant funding has been obtained. According to the Y2K points-of-
    contact, senior level management is very supportive and is providing the funds and
    resources to ensure that mission-critical systems become Y2K compliant.
    However, Arnold officials are concerned with the Nuclear Weapons Effect
    Computer System, which is not Y2K compliant and is classified as mission
    impaired. The primary tinction of the system is to provide safety during radiation
    testing; for example, personnel can be locked outside the chamber during radiation
    testing, but safeguards prevent anyone from being locked inside during testing. In
    addition, the Nuclear Weapons Effect Computer System is also located at other
    Air Force bases.




                                          4
 Status of the Air Force Major Range and Test Facilities Year 2000 Program




Eglin AFB. The Y2K project managers have assessed all of their business and test
information systems and are on schedule for renovating or replacing them. In
addition, Eglin has started to certify some of its systems so that they can move
from the assessment phase to the renovation phase.

However, the link between the Preflight Integration of Munitions and Electronics
System and the Guided Weapons Evaluation Facility is causing concern. The two
systems interface with each other and provide a total weapon system test
environment for the aircraft and munitions under test. At this time, the Preflight
Integration of Munitions and Electronics System is in the renovation phase and is
not Y2K compliant. The Air Force Development Test Center at Eglin AFB needs
$3.3 million to renovate the Guided Weapons Evaluation Facility, which is
repairing the link. According to facility officials, the Guided Weapons Evaluation
Facility will have to be shut down for an undetermined period to renovate the
system, which will cause a slip in the testing schedule.

Edwards AFB. The Air Force Flight Test Center, Edwards AFB, is still
identifying the systems’ phases, Most are behind schedule, and procurement
actions have not been started for some systems that need replacing. For example,
the Edwards Scheduling System, which the Air Force Flight Test Center considers
to be mission impaired, is not Y2K compliant, at this time. If the Edwards
Scheduling System is not Y2K compliant, manual scheduling, which has not been
used since 198 1, must be performed to coordinate operational flying schedules
This would be extremely difficult to prepare and to implement as a contingency
plan for a Y2K failure because any code failure could result in serious degradation
in flying capacity and effectiveness and include delays and cancellations. In a
worst-case scenario, an undiscovered code conflict between scheduled frequencies
could result in the total failure of a test mission involving multiple aircraft, costing
hundreds of thousands of dollars. No contingency plan has been developed by
Edwards AFB personnel to compensate for a complete, long-term failure of its
scheduling system. Eight out of 15 personal computers failed the leap-year test
and will be replaced. The cost to replace this system is estimated to be $1.5
million. However, the test wing has fixed the system and testing will be carried
out in September 1998.

Nellis AFB. According to management comments, the thirteen range systems at
the Test Warfare Center, Nellis AFB, have now been assessed and Nellis officials
expected all the range systems, except one, to be fully tested by     June 30, 1998.
Only the microwave back-bone system will have to be tested. The test report will
be completed by July 30, 1998, and actions will be taken to ensure Y2K
compliance. Since the Air Combat Control team entered the systems into the Air
Force Automated Systems Inventory database, 11 personnel have been certified
but only one can access the Air Force Automated Systems Inventory database.
The other 10 are still waiting for access privileges. As stated in the draft report,
the Route Integration Instrumentation System was behind schedule and costs to fix
Status of   the Air Force Major Range and Test Facilities Year 2000 Program



       the problem were unknown at the time. In March 1998, modifications were
       presented and approved by the Range Configuration Board and range officials
       anticipate that the renovation to the system will be completed by June 30, 1998


Management Awareness at the Ranges

       To ensure that the Air Force major range and test facility systems are Y2K
       compliant, senior level management must be knowledgeable, aggressively
       involved, and establish direction and oversight for the Y2K managers within their
       commands.

       Senior management at the Test Warfare Center at Nellis AFB was not aware of the
       Y2K seriousness; did not know that the systems were not yet in the Air Force
       database; and that the systems had to be certified before entering the next phase.
       In addition, the range did not have any personnel who had completed certification
       training at the Air Force Communications Agency Command. However, since our
       draft was issued, 11 Nellis personnel received certification training on May 2 1,
        1998. A system must be certified as finished with one phase before it can move
       into the next phase. The Air Combat Command developed Tiger Teams to review
       the Y2K status at the Air Combat Command bases. According to Nellis officials,
       all Compliance Checklist documents have been filled out correctly and Nellis
       personnel are completing the Y2K Tracking documents for the 13 range systems.

       Guidance and oversight to ensure that business and test information systems were
       being assessed by Y2K program managers were lacking at Edwards AFB. A lack
       of support for the Y2K program existed along with the problems that can occur if
       the systems are not Y2K compliant. Also, some personnel were recently assigned
       as Y2K points of contact and did not know which phase the system was in. Some
       Y2K program managers did not know that they had to test their systems and
       thought that the vendors would provide the information needed to test the system.
       In some cases, no certification tracking documents were filled out as required
       before a system can move from one phase to another and some of the tracking
       documents did not have the necessary contingency plans. However, since our
       visit, leadership has taken a more active role in the Y2K program and corrective
       actions have taken place or are planning to take place at Edwards AFB. See Part
       III for complete list of these actions.


Effects of Y2K Noncompliance

       The Air Force ranges are behind the DOD schedule to achieve certified Y2K
       compliancy. As a result, there continues to be risk that systems and application
       programs that use dates to calculate, compare, and sort could generate incorrect
       results. The Air Force needs to ensure that the business and test information
       systems at all range and test facilities are inventoried, assessed, renovated or
       replaced, and tested to ensure Y2K compliance by December 3 1, 1999.


                                            6
        Status of the Air Force Major Range and Test Facilities Year 2000 Program


      If the Air Force systems fail to recognize January 1, 2000, critical war-fighting
      functions such as combat, communications, surveillance, and air traffic control
      functions could be seriously affected. Furthermore, delays in supply shipments,
      errors with personnel-related information, and unreliable budget estimates could
      occur.



Other Matters of Interest

       Weapon System Testing at the Major Range and Test Facility Base. The
       Y2K problem is not restricted to one functional area within the DOD. Although
       computers deal with the business functions, they also perform, or support the
       performance of, our strategic and tactical operations. DOD relies heavily on
       computers to support weapons and weapon systems deployment. When the
       computer fails, the weapon or weapon system fails. The DOD major range and tes it
       facility base might be used to test weapons and weapon support systems;
       however, it is unclear whether the ranges would be able to test the Y2K
       compliance of the weapons systems if the ranges’ test equipment is not Y2K
       compliant. The ranges need to ensure that their test facilities, including the test
       equipment infrastructure, are Y2K compliant, so that program managers can use
       the major range and test facility base.


Recommendation           for Corrective Action

We recommend that the Director, Air Force Test and Evaluation Directorate, and
the Director, Air Force Operations and Training Directorate, review the status of
the Y2K problem at the major range and test facilities to ensure that system
assessment, repair, replacement and testing are completed by December 1999.

Management Comments. The Director, Test, Systems Engineering and Evaluation,
Ofice of the Under Secretary of Defense (Acquisition and Technology); the Director,
Test and Evaluation, J-Ieadquarters United States Air Force; and the Deputy Director of
Operations and Tramtng, Offrce of the Deputy Chief of Staff, Air and Space Operations,
submitted comments on the draft. The comments from the Director, Test, Systems
Engineering and Evaluation, concurred with the Air Force’s response. The Director,
Headquarters United States Air Force, Test and Evaluation, agreed with the
recommendation and stated that they would track the progress of the ranges and make
every effort to ensure that the Air Force range and test facilities comply with the DOD
Management Plan. The comments included updated information and a list of corrective
actions that have taken place or that will take place in the near future. The Deputy
Director of Operations and Training, Office of the Deputy Chief of Staff, Air and Space
Operations, concurred with the recommendation and included updated information and
corrective actions.




                                            7
Status of the Air Force Major Range and Test Facilities Yeai 2000 Program


We also received unsolicited comments from the Acting Deputy Assistant Secretary of
Defense (CIO Policy and Implementation) stating that the Air Force should accelerate its
schedule to achieve compliance by December 1998, because those ranges and facilities
may be required to test other systems for Y2K compliance.


Audit Response. We consider the comments to be responsive to the recommendation.
We have updated the report to reflect additional information provided by the Air Force
and slightly reworded the recommendation for clarity without changing its principal thrust.
No further comments are required.




                                              8
Part II - Additional   Information
Appendix A. Audit Process

    This is one of a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer, DOD,
    to monitor DOD efforts to address the Y2K computing challenge. For a listing of
    audit projects addressing this issue, see the Y2K webpage on IGNET
    (http,//www ignet.gov/).


Scope and Methodology

    Work Performed. We concentrated on the preparation of the Air Force major
    range and test facilities automated information systems to resolve the Y2K
    computing problem. We randomly selected four major range and test facilities to
    visit and reviewed the compliance of Y2K programs with the DOD Management
    Plan.

    We reviewed and evaluated the progress of the Air Force major range and test
    facilities in resolving the Y2K computing issue. We evaluated the Y2K efforts of
    Eglin AFB, Arnold AFB, Edwards AFB, and Nellis AFB. We compared their
    efforts with those described in the DOD Management Plan issued by the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence) in
    April 1997. We obtained documentation including the Air Combat Command and
    Air Force Materiel Command Y2K implementation plan, information on related
    Y2K contracts, the Air Force Y2K certification process, and various Y2K
    correspondence and reports. We did not review the management control program
    because DOD has acknowledged the Y2K computing problem as an area with
    material management control weaknesses and further reporting on those
    weaknesses would be redundant.

    DOD-wide Corporate Level Government Performance and Results Act Goals.
    In response to the Government Performance and Results Act, the Department of
    Defense has established 6 DOD-wide corporate level performance objectives and
    14 goals for meeting these objectives. This report pertains to achievement of the
    following objective and goal:

           Objective:   Prepare now for an uncertain fLture

             Goal: Pursue a focused modernization effort that maintains U.S
    qualitative superiority in key war-fighting capabilities. (DOD-~)




                                        10
                                                           Appendix   A. Audit Process


     DOD Functional Area Reform Goals. Most major DOD functional area have also
     established performance improvement reform objectives and goals. This report
     pertains to achievement for the following functional area objective and goal:

     Information Technology Management         Functional Area.

            Objective:   Provide services that satisfy customer information needs

            Goal: Upgrade technology     base. (ITM-2.3)

     General Accounting Offke High Risk Area. The General Accounting Office
     has identified several high risk areas in the DOD. This report provides coverage of
     the Information Management and Technology high risk area.


Summary of Prior Coverage

     The General Accounting Office and the Inspector General, DOD, have conducted
     multiple reviews related to Y2K issues, although none have focused specifically on
     Air Force major range and test facilities. General Accounting Office reports can
     be accessed over the Internet at http://www.gao.gov.   Inspector General, DOD,
     reports can be accessed over the Internet at http:Nwwwdodig.osd.mil.


Organizations      and Individuals Visited or Contacted

     We visited or contacted individuals and organizations within the Department of the
     Air Force Further details are available on request.


Management Control Program

     We did not review the self-assessment aspects of the management control program
     as it relates to the audit objectives because the Secretary of Defense Letter of
     Assurance for FY 1997 recognizes Y2K as a material management control
     weakness area.




                                          11
Appendix B.             Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition and Technology)
  Director, Test Systems Engineering and Evaluation
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications    and Intelligence)
   DOD Year 2000 Project Officer
Assistant Secretary of Defense (Public AfIairs)


Department of the Army
Auditor General, Department of the Army
Chief information Offker, Army


Department of the Navy
Auditor General, Department of the Navy
Chief Information Offricer, Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Offker, Air Force
Air Force Development Test Center
Air Force Flight Test Center
Tactical Fighter Weapons Center
Arnold Engineering Development Center
Electronic Systems Command




                                            12
                                                     Appendix B. Report Distribution


Other Defense Organizations
Director, Ballistic Missile Defense Organization
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




Non-Defense Federal Organizations                   and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory Affairs
Technical Information Center, National Security and International AfTairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International AfTairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security

Chairman and Vice-Chairman of the following congressional    committee:

   Senate Special Committee on the Year 2000 Technology Problem




                                             13
Part III - Management Comments
Office of the Under Secretary of Defense
Comments


                             OFFICE     OF THE     UNDER         SECRflARY       OF   DEFENSE

                                                3000 DEFENSE       PENTAGON
                                              WASHINGTON.        DC 2D301.3COO



    --lryD
       Tw*(oLIoo”
                                                                                           S 0   JUM a

         MEMORANDUM             FOR MSPECTOR GENERAL (DIRECTOR, ACQUISITION
                                      MANAGEMENT DIRECTORATE)

         SUBJECT:       Audit Repott on Year 2000 computing problem at Air Force Major Range and Test
                        Facilities (Project Number 8AB-3003)


                    WC have reviewed the subject draf? audit repott and the Air Force commen tstothereport.


         We concur with the Air Force’s response and support them in theii efforts.       We intend to work

         with the Air Force to assist them in addressing the issues and achieving Y2K compliance at the

         Major Range and Test Facilities (MRTFBs).




                                                             Patricia Sanders             _
                                                             Director. Test, Systems
                                                             Engineering and Evaluation




                                                            f




                                                            16
Department of the Air Force Comments


                                  DEPARTMENT OF THE AIR FORCE
                                  HEADOUARTERS UNITED STATES AtA FDftCE




     MEMORANDUM            FOR OFFJCE OF THE INSPECTOR GENERAL, DOD

     FROM:      HQ USAFm
                1650 Air   Force Pentagon
                Washington.   DC 20330- 1650

     SUBJECT:      Audit Rcpor~ on Year Zoo0 Computing   Problem at Air Force Major      Range and Test
                   Facilities (Project No. 8AB-3003)

            WC appreciate the opportunity IO comment on the subject audit. We take the
     responsibility for complying with the Year 2CKtO(Y2K) goals very seriously. We agree with the
     recommendation that the Air Force Test and Evaluation Directorate review the status of the Y2K
     problem at major Air Force test facilities. We will continue to work with AFCRXTJ and HQ
     AFMUSCY to track progress on these efforts. Every effort will be made to ensure that Air
     Force major range and test facilities comply with the DoD Management Plan.

            Comments on the audit report are attached. If you have any questions, please contact
     MaJor Jay Cosscntine. CosscntJ@af.pentagon.mil. (703) 6%8623/DSN       2254623.




                                                         Director, Test and Evaluation



     Response to Draft DOD JG Report on Year 2000
        Computing Problems
     CC:
     AFCJUJTI
     AJMUDO
     AFMUSCY
     AEDUCC
     AFDTCXC
     AFFTclcc




                                                   17
               Department of the Air Force Comments




Final Report
  Reference




                                    Response to Draft DOD IG Report on Year 2000
                                               Computing Problems


                           DOD 10 Stahtnant:

                           Page 4. Air Force Major Range and Taat Facllttba

Revised                           a. Two of the four rangas (Arnold and Eglin) have identitiad the system6 and are
                           on schedule to meet the renovation phase mibstona compbticm date of September
                           1998.

                           R#wnw:
                                    a. Per the Air Forca Matarbl Command Year 2000 Program Management Plan,
                           Version 6.0, dated 15 Jun Qg: The deadline for the Renovation Phase is 30 Jun 98.
                           Thirr phesa is dedlcatad to the procaas of modifying each system not to k terminated to
                           make it YZK compliant (the applicstions and systems are capahb of correct
                           idantlfication, manipulation, and calculatii using dates outride of the lgOC&lQQQyear
                           range, and proper handling of bap year in the year 2000).

                           DOD IO Statementa:

                           Pale 4, Arnold AFB

Revised                            a. The Y2K systems have also hean priorittzed by how critical each system is to
                           the Arnold AFS mb6ion, resulting in 27 unfunded Y2K systems. The estimated cost to
                           repair or replace the unfunded systems is 51.4 million.


Revised                           b. However. Arnold oficials are concerned with the Nuclear Weapons Effect
                           Computer System, which is not Y2K compliant and is dassifbd as mission critical. The
                           primary function of the system is to provide safety during radiition testing; for example,
                           personnel can be locked Inside the chamber during radiation testing.




                                   a.    Since the audit, Arnold Engineering Development Center (AEDC) has
                           continued     to identify and ret%6 Year 2000 (YZK) operational impact6 and potential
                           solutions.     Significant funding has been obtained or redkectad from other purposes
                           Items still   unfunded ara being incMed in FY Qg job plans and budgets.

                                    b. The Y2K impact could have the effect of erroneously locltin~ personnel out of
                           the chamber, hut there are safeQuard6 that prwent anyone from being locked in during
                           radiation testing. Thm is no immediate threat to personnel safaty from any idemified
                           Y2K impact at AEDC. The needed upgrade for the Nucbar Weapon6 Effect Computer
                           System is now available on GSA schedub, and 1sbeing procured.




                                                                      18
                                            Department of the Air Force Comments




                                                                                          Final Report
                                                                                           Reference




        Per Air Forca Manual10401. a miaaion crttical ayabm (Group I) means ‘the toaa
of these critical functffna woukl wuae immedttte atoppaga of dimct miaaion support of
wartime operattona.’ The Nudear Weapona Effect Computar System is categorized as
mission Impslnd (Grcup Ill), which meena ‘the ioaa of thaae functiia would not have
an immediate effect on dimct mtaaion support of wartime operations.’

DOD:
Page 5, Edwards AFB

       a. For example, the Edward8 Scheduling System, which the Air Force Fittht          Revised
Teat Center considers to be miaaion critical, ia not Y2K compliant, et this time.

       b. The coat to renovate this ayatem ia estimated to ba 51.5 million.               Revised



        a. Per Air Forca Manual 10-401. a miaaion crkicel system (Group I) meena “the
loss of these criticei functions would cauae immsdlste stoppage of dbwi miaaion
support of wartime opemtiina.’ The Edwerda Schaduitng System h cetegonzed as
mbelon impelmd (Group Iii), which meena ‘the IOU of iheae functkma wouki not have
an immediate effect on direct mission support of wartime operationa.’

        b. $1.5 million ia the coat to wmptetely replace tha Edwards Scheduling
System-not the renovationcoats. The 412e Teat Wrng haa already completed fixes on
the system and has vdideted these repairs in-houae. at a coat of approximstety 2-3 man
months. Testing will be carned out in September lgg6

MID IG Stetementa:

Page 6. Manegement     Awareness at the Rangea

        a. Guidance and ovemrght to ensure that business and teat inform&on systems
were being aaaeaaed by Y2K program manegam were lackingat Edwards AFB. There
was also a lack of support of the Y2K progmm and tha problems that can occur if the
ayatama am not Y2K compiiant. Also. aoma personnel had just teen aaaigned as Y2K
potnta of contact and did not know which phaae the ayatem wea in. Some Y2K progmm
managem did not know that they had to teat thetr lyatema and atated that they thought
the vendors would providethe infonation needed to test the system. In aome cases.
no certiition   tracking documents were fified out as required before a ayatem can
move from one phase lo another. in addiion. some of the tracktng documents did not
have the necessary conttngency plans. However, since our vhit. leadenhip has taken a      Revised
more active roie in the Y2K program




       a. The following corrective acttons have bken place at the Air Force Flight Teat
Center (AFFTC) srnce the audit or am currently planned:




                                           19
Department of the Air Force Comments




           - Since March 1998, AFFTC senior management has taken the following steps to
             address the Y2K problem:

            - Assigned full-time personnel to work YZK. in&ding Anthony Lattanzs, GS-13. as
              the new YZK Program Manager; establiihed AFFTC Y2K Program Management
              Oftice (PMO)

            -- AFFTC Y2K PM0 has been established in order to raise Y2K awamness and
               provide focus and directiin to the Center Y2K program; tha PM0 reports directly to
               the AFFTCXD

            -- The Air Force Automated Systems Inventory (AFASI) database has been updated
               to mftect accurate AFFTC status information; the Y2K PM0 randarn due diligence
               in reporting AFFTC Y2K status updates both internal and external to AFFTC

            - Y2K Informational 8-s       were conducted base&de to introduce all AFFTC
              personnel. including contractors and tenant units, to the AFFTC Y2K strategy and
              system reporting proosdums

            -- PM0 views hard copies of Y2K document&on as mandatory and has
               documentation templates for Risk Management/Contingency Plans, Test Plans. and
               Program Management Plans

            - PM0 emphasizes completion of phase crileria vemus Air Force target completion
              dates; the PM0 has established realistic deadlines but wiil adhere to the fir Force
              schedule aa much as possibkt

            -- AFFiC Y2K Program Manager sends out biweekly PM0 status reports via email to
               provide meaningful data to senior managem with regards to the Y2K effort

            - PM0 coordinated with base contrading (AFFTWPK) to enforce Y2K compliance on
              new purchases; verbal warnings will prevail until 30 Sep 98 after which contractual
              language will be applied

            - PM0 will provide one-on-one assistance visits to ensure system points of contact
              (POCs) are maintaining Y2K system folders. documentation, plans. and following
              current procedures

            - PM0 has two main expectations: mitigate the risk of mission faiture due to the Y2K
              problem and substantially improve in the nexl Y2K inspectiinlaudii




                                                    20
                                                   Department of the Air Force Comments




                          DEPARTMENT OF THE AIR FORCE
                          HEAOQUARTERS UNITE0 STATES AIR FORCE




                                                                             2 8 JUN 1338


MEMORANDUM        FOR OATG-AUG

FROM:   AFIX
        1480 Air Force Pentagon
        Washington, DC 20330-1480

SUBJECT:    DoD Draft Audit, Year 2000 Computing Problem at Air Force Major Range and
            Test Facilities (SAB-3003)

        Thank you for the informative report concerning the year 2000 (Y2K) computing
problem at Air Force Major Range and Test Facilities and the opportunity to commenton the
draft results. The Air Force suppotts the “DoD Year 2tXKI Management Plan” and fully
understandsthe importance of adhering to it for successftdcomputing solutions by March 1999.
In responseto your request for comments, X00 submits the attached, in a question and answer
format addressingthe Y2K compliance statusidentified at the Air Warfare Center. Nellis Air
Force Base, NV.

       The X00 point of contact for this action is Maj John Bemier, commercial number 703-
693-0658. DSN 223-0658.




Attachment:
X00 Comments on Draft DOD Audit




                                              21
               Department of the Air Force Comments




Final Report
 Reference


                                              X00 Comments on DoD Draft Audit. 8A&3003




                                 a. Ncllis is still in the awareness and assessment phases and may not meet the
                          renovation milestone date.

                                  b. The ranges have identified certain systems as mission critical that may need a
                          higher funding priority to ensure Y2K compliance.

                          NELLIS:

                                 a. The Nellis awareness and assessment phase was completed in Nov 97. We
                          expect all range systems to be fully tested by 30 Jun 98. Of the 13 range systems, the
                          only unresolved range system is the microwave ‘back-bone’ (identified as System ID
                          AS006334 in the table below). The microwave system will be tested by 30 Jun 98 for
                          Y2K compliance. A test report will be delivered by 30 Jul98 and actions will be taken to
                          ensure Y2K compliance.

                                  b. The Range Management Office anticipates all mission critical range systems
                          will be Y2K compliant without obtaining higher funding priorities.

                          pOD IG Statements. Page 5, Nellis AFB:

Revised                          a. Eighteen test systems were identified in March 1998 as range-owned and still
                          have to be assessed to determine the renovations or replacements that are necessary.
Revised                        b. As of March 1998, these systems had not been entered into the Air Force
                          Automated System Inventory database.
Revised
                                  c. The Route Integration Instrumentation System is behind schedule and a
                          deficiency exists in creating mission identifications for Y2K.
Revised
                                 d. Nellis could not provide documented estimates of the cost to solve the
                          problem.

                          NELLIS Reswnse:

                          See attachment I for a listing of the 13 Nellis range systems referenced in the DoD IG
                          Audit.

                                 a. This is not correct. There are I3 range systems and all of these have been
                          assessed. The other 5 systems belong to other organizations on Nellis.

                                  b. These systems had to be entered into the referenced database by HQ ACC Y2K
                          team personnel because no one at Nellis had access to the AFASl at the time of the 1G
                          visit. Nellis has since received certification training for 11 personnel, but only one of the




                                                                     22
                                             Department of the Air Force Comments




                                                                                              Final Report
                                                                                               Reference


                   X00   Comments on DoD Draft Audit, 8AB-3003


I 1 can accesstbe Air Force Automated inventorydatabase. The Air Force
CommunicationAgency grants accessto this databaseand as of this date, 10 are still
waiting for accessprivileges.

       c. The Nellis RJIS assessmentwas completed in November 1997 and issueswere
identified. Systemsmanagers and engineershave taken the necessarystepsto tepair and
correct the problems. In March 1998. the modificationswere presentedand approvedby
the range Configuration Control Board. We anticipatethe RIIS system renovationwill be
completedby 30 June 98.

       d. At the time of the DoD IG Audit, the costswere unknown, as we were not sure
what actionsneededto be taken. We have sinceevaluated and are modifying the RIIS
system. The renovation should be complete by 30 Jun 98 and accomplishedwithin the
scopeof the current support contract.

DOD IG Statements,Page 6. Management Awarenessat the Ranttes:

        a. The range did not have any personnelwho bad completed certification training       Revised
at the Air Force Communication Agency Command.

       b. In some cases,no certification tracking documentswere filled out as required
before a systemcan move from one phaseto the next.

NELLJS Rcsnonse:

       a. Eleven Nellis personnel received their training on 2 1 May 98.

        b. There was some confusion with the Compliance Checklist and Y2K Tracking
documents. All range systems Compliance Checklist documentsare tilled out correctly
now. Nellis personnelare in the processof completing the Y2K Tracking Documentsfor
the thirteen systemsidentified below.

DOD IG Statements.Pane 6. Effects of Y2K Noncomohanee:

        a. The Air Force ranges may not meet the DoD schedule to have all systemsY2K
                                                                                              Revised
compliant by December 3 1.1999. The Air Force needsto ensure that the businessand
test informationsystemsat all their range and test facilities are inventoried, assessed.and
renovatedor replaced to ensure Y2K complianceby December 3 I, 1999.



NELLIS Resuonse:

       a Range systemswill be Y2K compliant by December 31,1999. We are
currently on schedulewith the DOD Y2K Management Plan. Eight of the 13 range
systemsare already Y2K compliant and will be so documented in the Y2K Tracking




                                           23
Department of the Air Force Comments




                               X00   Comments on DOD Dmfi Audit, 8AB-3003


           Document (version February 9,1998). Our range support contractor has tested the
           microwave backbone and problems were identified. The test report is due 30 Jul98 and
           we will take conective actions after evaluating our options.




                                                    24
                                                   Department of the Air Force Comments




Attachment   I

                    RANGE SYSTEMS IDENTIFIED         FOR Y2K COMPLIANCE




 Acroynm List:
 AWMDS -Air Warrior Measurement and Debriefing Syslern
 GIS - Geographic Information System
 IMS - Information Management System
 MIP - Modular Instrumentation Program
 NRSS Master Switch - Nellis Range Support System
 NRSS Microwave - Nellis Range Support System
 RAMS - Range Airspace Management Syslem
 RFCZ - Red Flag Command and Control
 RFMDS -Red Flag Mission Debriefing System
 RIlS/lTAS   -Route Integration Instrumentation Systemllntegrated Tactics Assessment System
 TOSS - Television Ordinance Scoring System
 VDAS - Video Data Analysis System
 RSS - Range Scheduling System




                                              25         ’
Office of the Under Secretary of Defense
Comments


                 OFFICE    OF THE   ASSISTANT         SECRETARY       OF DEFENSE
                                    m    DEFENSE       PKNTAGON
                                 WASHINGTON.        DC   203014ODO




      MEMORANDUM     FOR   INSPECTOR    GENERAL      OF THE    DEPARTMENT   OF    DEFENSE

      SUBJECT:      Audit Report  on Year 2000 Computing    Problem               at Air
                    Force Major  Range  and Test Facilities
                     (Project No. 8AB-3003)


            We have reviewed     the draft    report of your audit     to determine
      whether   the   Air Force   is adequately    preparing its information
      technology     systems  to resolve   date-processing   issues    for the
      Year 2000     (Y2K) computing   problem   at eight major   range   and test
      facilities.

            We concur with your recommendation           that the Director,       Air
      Force   Test and Evaluation      Directorate,     and the Director,      Air
      Force Operations      and Training     Directorate   should    review   their
      program.     However,   the December      1999 target date     for compliance
      is too late.      The Air Force also should        recommend    measures    to
      accelerate    their schedule     to achieve    compliance    by December      1998,
      particularly     since these    ranges   and facilities     may be required       to
      test other    systems    for Y2K compliance.

            My point of contact    for this report  1s Ms. Sally    Brown,  who
      is assigned   to the office   of the Deputy Assistant    Secretary   of
      Defense  for CIO Policy   and Implementation,   telephone    number
      (703) 602-0967.




                     Acting   Deputy  Assisthfit Secrk;ary     of       Defense
                               CC10 Policy   6 Implementation)

      cc:
      Assistant    Secretary  of the
        Air Force     (FM&Cl
      Dir., Test Systems
         Engineering    and Evaluation




                                               26
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

   Thomas F. Gimble
   Patricia A. Brannin
   Raymond A. Spencer
   Michael E. Simpson
   Barbara A. Moody
   C. L. Melvin
   Warren M. Brooks
   Krista S. Gordon
